1

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3372
Kenneth Ray Marshall
Appellant
v.
Dexter Payne, Director
Appellee

Appeal from U.S. District Court for the Eastern District of Arkansas - Central
(4:20-cv-00732-JM)
ORDER
Appellant’s motion to file an overlength petition for rehearing is denied. The petition for
rehearing en banc is denied as overlength. The petition for rehearing by the panel is also denied.
March 08, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

*7'

I

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3372

Kenneth Ray Marshall
Plaintiff - Appellant
v.
Dexter Payne, Director
Defendant - Appellee
Appeal from U.S. District Court for the Eastern District of Arkansas - Central
(4:20-cv-00732-JM)
JUDGMENT

Before LOKEN, BENTON, and GRASZ, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
The motions to proceed in forma pauperis are denied.
January 27, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

A3

f
1

l

Case: 4:20-cv-00732-JM

Document#: 11-0

Filed: 10/30/2020

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
KENNETH RAY MARSHALL

PETITIONER

4:20CV00732 JM/PSH
D EXTER PAYNE, DIRECTOR,
A rkansas Department of Correction

RESPONDENT

ORDER
The Couit has received proposed Findings and Recommendations from
Magistiate Judge Patiicia S. Harris. After careful review of those Findings and
Recommendations, the timely objections received thereto, and a de novo review of
the recoid, the Court concludes that the Findings and Recommendations should be,
and hereby are, approved and adopted in their entirety as this court's findings in all
respects. Judgment will be entered accordingly.
Puisuant to 28 U.S.C. § 2253 and Rule 11 of the Rules Governing Section
2554 Cases in the United States District Court, the Court must determine whether to
issue a certificate of appealability in the final order. In § 2254 cases, a certificate of
appealability may issue only if the applicant has made a substantial showing of the
denial of a constitutional right. 28 U.S.C. § 2253(c)(l)-(2). The Court finds no issue
on which petitioner has made a substantial showing of a denial of a constitutional
right. Thus, the certificate of appealability is denied.
IT IS SO ORDERED this 30th day of October, 2020.

~35

Case: 4:20-cv-00732-JM

Document #: 11-0

Filed: 10/30/2020

Q3Uq

Page 2 of 2

UNITED STATES D STRICT JUDGE

Case: 4:20-cv-00732-JM

Document#: 12-0

Filed: 10/30/2020

Page 1 of 1

TN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
KENNETH RAY MARSHALL

PETITIONER

4:20CV00732 JM/PSH
DEXTER PAYNE, DIRECTOR,
Arkansas Department of Correction

RESPONDENT

JUDGMENT
In accordance with the Court's Order entered this date, judgment is hereby
entered dismissing this petition for writ of habeas corpus with prejudice. The relief
sought is denied. The certificate of appealability is denied.
IT IS SO ORDERED this 30th day of October, 2020.

•

UNITED STATES DISTRICT JUDGE

Case: 4:20-jcv-00732-JM

Document #: 9-0

Filed: 10/15/2020

Page 1 of 8

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
KENNETH RKY MARSHALL

PETITIONER

i

!
!
!

No. 4:20-cv-00732 JM/PSH

D EXTER PAtNE, DIRECTOR,
A rkansas Department of Correction

RESPONDENT

FINDINGS AND RECOMMENDATION
INSTRUCTIONS
The following recommended disposition has been sent to United States District
Judge James M. Moody, Jr. You may file written objections to all or part of this
Recommendation. If you do so, those objections must: (1) specifically explain the
factual and/or legal basis for your objection; and (2) be received by the Clerk of this
Court within fourteen (14) days of this Recommendation. By not objecting, you may
waive the right to appeal questions of fact.

DISPOSITION
Kenneth Ray Marshall (“Marshall”) seeks a writ of habeas corpus pursuant to
28 U.S.C. § 2254. Marshall is currently in the custody of the Arkansas Department
of Correction (“ADC”) following guilty verdicts in a 2015 jury trial in the Circuit
Cc urt of Columbia County on the charges of aggravated residential burglary and
commercial burglary. He was sentenced as an habitual offender to life imprisonment.

5-4

r
Case: 4:20cv-00732-JM

Document #: 9-0

Filed: 10/15/2020

Page 2 of 8

Oi direct appeal, Marshall submitted two claims' for relief. The direct appeal was
unsuccessful. Marshall v. State, 2017 Ark. 347. Marshall subsequently sought Rule
37 postconviclion relief, alleging his trial attorney ineffectively requested trial
ccntinuances without good cause or legal bases, which deprived him of his right to a
speedy trial. The trial court denied his Rule 37 petition, and the Supreme Court of
Arkansas affirmed that decision. Marshall v. State, 2020 Ark. 66.
In his federal habeas corpus petition, Marshall claims:
(1) the state court’s conclusion that Marshall’s attorney was not deficient resulting in
a denial of his right to a speedy trial was contrary to and/or an unreasonable
i

application of Established federal law;
(2) the state court’s conclusion that Marshall was not prejudiced by the claimed
de ficient acts and omissions by his attorney was contrary to and/or an unreasonable
apclication of established federal law; and
(3; the state court s decision to deny Marshall relief was based on an unreasonable
de eimination of the facts and application of the law in light of the evidence presented
in state court proceedings.
Respondent Dexter Payne (“Payne”) contends the petition should be
dismissed, and Marshall has addressed Payne’s assertions in a supplemental reply.
Dceket entry nos. 7 & 8.

'The claims were: (1) the State did not prove he entered or remained in another
peison s residence with the specific intent to commit a criminal offense; and (2) the
Style did not prove he entered or remained in another person's residence while armed
wilh a deadly weapon.

Case: 4:20lcv-00732-JM

Document#: 9-0

Filed: 10/15/2020

Page 3 of 8

Analysis
Mai sljiall s fiist and second claims for relief are issues which were considered
by the Supreme Court of Arkansas. When the state court has ruled on the merits of
a petitioner’s diaims, a writ of habeas corpus may not be granted unless the state
court’s decision “was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court” or the state court’s
decision “ was based on an unreasonable determination of the facts in light of the
evidence presented in the State court.” 28U.S.C. § 2254(d)(1), (2). The United States
Supreme Court offers guidance in interpreting the statute:
A state court decision will be “contrary to” our clearly established
precedent if the state court either “applies a rule that contradicts the
governing law set forth in our cases,” or “confronts a set of facts that are
materially indistinguishable from a decision of this Court and
nevertheless arrives at a result different from our precedent.” A state
court decision will be an “unreasonable application of’ our clearly
established piecedent if it “correctly identifies the governing legal rule
but applies it unreasonably to the facts of a particular prisoner’s case.”
. ; . Distinguishing between an unreasonable and an incorrect
application of federal law, we clarified that even if the federal habeas
court concludes that the state court decision applied clearly established
federal law incorrectly, relief is appropriate only if that application is
also objectively unreasonable.
Pe nry v. Johnson, 532 U.S. 782, 792-93 (2001) (citations omitted).
The Supreme Court of Arkansas addressed Marshall’s arguments in the
following passage:
In his first point on appeal, Marshall contends that the trial court did not
hold a heating and failed to make sufficient findings of fact to sustain its
conclusions. The trial court concluded that Marshall had failed to
demonstrate that counsel was deficient or that as a result of the alleged
deficiencies, the outcome of the proceeding would have been different.

3(o

Case: 4:20cv-00732-JM

Document #: 9-0

Filed: 10/15/2020

Page 4 of 8

In sum, the trial court’s conclusions were sufficient for review. In any
event, \yhen a petition for postconviction relief is denied without a
hearing,iRule 37.3(a) requires that the trial court “shall make written
findings (to that effect, specifying any part of the files, or records that are
relied upon to sustain the court’s findings.” Henington v. State, 2012
Ark. 181, at 9, 403 S.W.3d 55, 62. If the trial court fails to make such
findings, it is reversible error, except in cases in which it can be
determined from the record that the petition is wholly without merit or
when the allegations in the petition are such that it is conclusive on the
face of the petition that no relief is warranted. Id. Here, it is clear from
the record and from the allegations contained in the petition that
Marshall’s Rule 37.1 petition is without merit.
In his petition and in his arguments on appeal, Marshall contends that he
was arrejsted on November 26, 2013, and was tried on June 1 7, 2015,
which iS 568 days between his arrest and his trial. According to
Marshall, his attorney erroneously requested continuances without good
cause or legal justification. Marshall further contends that the trial court
erred by granting his counsel’s requests.
Under Rule 28.1 of the Arkansas Rules of Criminal Procedure (2018), a
defendant must be brought to trial within twelve months unless there are
periods of delay that are excluded under Rule 28.3. Gondolfi v. Clinger,
352 Ark. 156, 98 S.W.3d 812 (2003). Rule 28.3(c) provides that “the
period of delay resulting from a continuance granted at the request of
defendant or his counsel” shall be excluded in computing the time for
trial. Periods oftime attributable to competency evaluations are likewise
excludable in computing the time for trial. Ark. R. Grim. P. 28.3(a).
The record demonstrates that there was no speedy-trial violation because
Marshall was brought to trial within the twelve months after several
excludable time periods attributable to the defense are subtracted from
the 568-day period. These excludable periods are specifically reflected
in the trial court’s docket entries: on February 6, 2014, defense counsel
moved for a 133-day continuance to allow Marshall to participate in a
temporary violators program” within the Arkansas Department of
Correction; on October 2, 2014, another continuance was requested
because the State offered a plea deal that included a proposed sentence
of twenty years’ imprisonment, and 63 days later on December 4, 2014,
Marshall appeared in court and rejected the offer; following the plea
lejection, another 67 days were excluded beginning on February 13,
2015, with a “fitness to proceed” order and ending on April 15, 2015, the
date the results were filed. Because these periods of delay were at the
request of the defendant and included a period of time for the purpose of
a competency evaluation, they are excludable. These excludable periods
total 263 days, which, when subtracted from the 568 days, demonstrates
that Marshall was brought to trial within 305 days from the date of his

37

Case: 4:20-cv-00732-JM

Document #: 9-0

Filed: 10/15/2020

Page 5 of 8

arrest. Therefore, Marshall has not shown that counsel failed to file a
meritorious motion to dismiss based on a speedy-trial violation. Counsel
is not ineffective unless a defendant is tried in violation of a speedy-trial
right and counsel failed to raise the issue either at the trial level or on
appeal. See Camargo v. State, 346 Ark. 118, 55 S.W.3d 255 (2001).
Marshall does not argue that counsel failed to raise a speedy-trial issue;
rather, Marshall alleges that his attorney was ineffective by requesting
the delays without a legal basis and contends that the trial court erred by
granting! the defense’s requests. Allegations of trial court error are
assertioris that must be raised at trial and on direct appeal and are not
cognizable in Rule 37.1 proceedings unless the error is such that it would
void the judgment. McClinton v. State, 2018 Ark. 116, 542 S.W.3d 859.
An alleged speedy-trial violation is not a defect sufficient to void a
judgment. State v. Wilmoth, 369 Ark. 346, 255 S.W.3d 419 (2007).
Finally, even assuming that counsel’s requests delayed Marshall’s trial
without ja legal basis, Marshall fails to demonstrate that he was
prejudiced as a result of counsel’s alleged errors. As stated above,
Marshall must demonstrate a substantial likelihood that counsel’s errors
changed the outcome of the proceedings. Thompson, 2019 Ark. 312, 586
S.W.3d 615. Here, Marshall fails to allege any facts demonstrating that
the delay in his trial changed its outcome.
Marshall v. State, 2020 Ark. 66, 4-6.
The “clearly established Federal law” applicable in this instance is Strickland v.
Washington, 466 U.S. 688 (1983), requiring a petitioner to prove that (1) his attorney's
actions were unreasonable when viewed in the totality of the circumstances; and (2)
he was prejudiced because there is a reasonable probability that, but for counsel's
un Drofessional errors, the result of the trial would have been different. The Supreme
Cc urt of Arkansas cited Strickland in its opinion. And although the trial court did not
specifically cite federal law, that failure is not problematic as the Arkansas cases2 cited
by the trial court mirror the principles of Strickland, and neither the court’ s reasoning
no :• result contradicts federal law. See Cox v. Burger, 398 F.3d 1025, 1030 (8lh Cir.

2The trial court cited, inter alia, Isom v. State, 284 Ark. 426 (1985) and
Wcinwnght v. State, 307 Ark. 569 (1992), both of which cite Strickland.

32

Case: 4:20-cv-00732-JM

Document#: 9-0

Filed: 10/15/2020

Page 6 of 8

2005).

Having reviewed the trial record and the Supreme Court of Arkansas’ Rule 37
opinion, the Court concludes that the state court decision was not contrary to, or an
unreasonable application of; Strickland. The Supreme Court of Arkansas’ opinion,
i

thoroughly setting out the law and the assertions of ineffective assistance of counsel,
held that Marshall failed to satisfy the second prong of the Strickland test in every
allegation of counsel error. Put another way, even if Marshall’s counsel had made
every argumen he now claims should have been made, there was no prejudice to him
as he fails to demonstrate any of the arguments were meritorious. This application of
Strickland was 'appropriate and there is no merit to Marshall’s claim, under 28 U.S.C.
§ 2254(d)(1), of constitutional error in applying the applicable federal law.

Marshall quarrels with the Supreme Court of Arkansas, noting the three
intervals, which it cited as properly excluded in the speedy trial calculations.3 These
periods were: (1) 133 days to allow Marshall to participate in a temporary violators
program ( TVP ) within the ADC; (2) 63 days to continue with plea negotiations; and
(3 67 days to allow an evaluation regarding Marshall’s competency to proceed.

Conceding that the third interval of 67 days was properly excluded from the
speedy dial formula, Marshall argues the first and second intervals were erroneously
attributed to him. Regaiding the first interval of 133 days, Marshall concedes his
attorney requested his assignment to the TVP. Despite the admitted request on his

a

i

^uPfeme Court of Arkansas indicated there were additional periods of

m

Case: 4:20-cv-00732-JM

Document #: 9-0

Filed: 10/15/2020

Page 7 .of 8

behalf, Marshall contends the TVP is an ADC program and, as a result, is “in direct
|

violation of the intent of Rule 28.1(b) to provide trial while a defendant is
incarcerated.”4 Docket entry no. 1, page 7. Marshall contends the second interval, 63
days for plea negotiations to occur, was requested by the prosecution rather than
Marshall’s attorney, who acquiesced in the request.5 Marshall concedes that the
do clcet sheet is silent as to who requested this continuance. Docket entry no. 8, page
5.

The Supreme Court of Arkansas found Marshall’s attorney was not deficient
regarding the isjue of speedy trial, and further found no prejudice accrued to Marshall
i

!

stemming front his attorney’s acts or omissions. Marshall fails to show that the
Supreme Court|of Arkansas' rulings were contrary to, or involved an unreasonable
application of, Strickland. To the contrary, Marshall does not refute the Arkansas
co Jrt’s finding jhat a speedy trial motion was without merit. It follows that existing
federal law, Strickland, was not offended when Marshall’s attorney failed to advance
a neritless motion. Dodge v. Robinson, 625 F.3d 1014 (8th Cir. 2010). There is no
merit to the first two claims advanced by Marshall.

. .4To the extent that Marshall may be arguing a violation of state rules, such a
claim is not cognizable in this petition. Federal habeas corpus relief is available for
a p|erson in state custody “only on the ground that he is in custody in violation of the
Co nstitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a). “[I]t is not
the province of a federal habeas court to reexamine state-court determinations on
sta te-law questions.” Estelle v. McGuire, 502 U.S. 62, 67-68 (1991).
Additionally, the Supreme Court of Arkansas noted its own rule, A.R.Cr.P.
28.3(c), explicitly provides that a delay resulting from a continuance granted at the
rec uest of a defendant or his attorney shall be excluded in computing time for trial.
A ciiminal defendant is well advised to pursue plea negotiations, and it is
difficult to criticize a continuance to engage in plea negotiations, whether acquiesced
to oi lequested by a defendant s attorney. Here, the negotiations netted Marshall a
proposed twenty year sentence, which he rejected.

Case: 4:20-:cv-00732-JM

Document #: 9-0

Filed: 10/15/2020

Page 8 of 8

Marshall’s third claim for relief is error when the trial court denied his Rule
37 petition without conducting a hearing. This claim is rooted in state law - that is,
this trial court violated A.R.Cr.P. 37.1 when it ruled without conducting a hearing. As
pr eviously notdd, state law challenges are not cognizable in federal habeas corpus
actions. See Estelle v. McGuire, 502 U.S. 62 (1991). While Marshall frames this
argument as an unreasonable determination of the facts in light of the evidence
presented in st^te court, this characterization does not change the nature of the claim
i

or bring the claim under the umbrella of 28 U.S.C. § 2254(d)(2).
Conclusion: For the foregoing reasons, the Court recommends that the
petition for writ of habeas corpus be dismissed and the relief requested be denied.
Pursuant to 28 U.S.C. § 2253 and Rule 11 of the Rules Governing Section
2554 Cases in the United States District Court, the Court must determine whether to
issue a certificate of appealability in the final order. In § 2254 cases, a certificate of
apoealability may issue only if the applicant has made a substantial showing of the
dejiial of a constitutional right. 28 U.S.C. § 2253(c)(l)-(2). The Court finds no issue
on which petitioner has made a substantial showing of a denial of a constitutional
right, and therefoie recommends that a certificate of appealability be denied.
IT IS SO RECOMMENDED this 15th day of October, 2020.

c

4X

UNITED STATES MAGISTRATE JUDGE

Additional material
from this filing is
available in the
Clerk's Office.

